                                    Report Template Update: 06-30-07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 DIVISION OF UNACCOMPANIED 

    CHILDREN’S SERVICES: 

 EFFORTS TO SERVE CHILDREN





                    Daniel R. Levinson

                     Inspector General 


                       March 2008

                     OEI-07-06-00290

                                                                  Report Template Update: 06-30-07




               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N
Δ    E X E C U T I V E                                   S U M M A R Y


                    OBJECTIVE
                    To assess the Division of Unaccompanied Children’s Services’ (DUCS)
                    placement, care, and release of unaccompanied alien children.


                    BACKGROUND
                    For fiscal year (FY) 2008, the President’s budget request for the
                    Department of Health and Human Services (HHS) estimates that the
                    Federal Government will apprehend 10,350 unaccompanied alien
                    children who will be placed into HHS custody. The term
                    “unaccompanied alien child” is defined in 6 U.S.C. § 279(g)(2) as a child
                    who has no lawful immigration status in the United States, who has not
                    attained 18 years of age, and who has no parent or legal guardian in the
                    United States available to provide care and physical custody.

                    The Homeland Security Act of 2002 transferred care and custody of
                    unaccompanied alien children to DUCS within the Administration for
                    Children and Families (ACF). The Homeland Security Act also created
                    the Department of Homeland Security (DHS), which is responsible for
                    immigration benefits and enforcement.

                    In 1985, a class action lawsuit challenged Federal detention policies and
                    procedures for children in Federal custody. The litigants reached a
                    settlement, commonly known as the Flores Agreement, that included
                    minimum standards for placement, care, and release to sponsors of
                    alien children in Federal custody. Although HHS did not have
                    responsibility for unaccompanied alien children at the time the
                    settlement was reached, section 1512(a) of the Homeland Security Act
                    specifies that such agreements continue in effect according to their
                    terms. Therefore, HHS is bound by the terms of the Flores Agreement.


                    FINDINGS
                    Most children appeared to be placed and released in accordance with the
                    Flores Agreement. The Flores Agreement requires that children be
                    admitted to facilities within 3 to 5 days, in most cases; be placed in the
                    least restrictive setting appropriate; and be released “without
                    unnecessary delay.” Eighty-four percent of children were admitted to
                    facilities within 3 days of apprehension and less than 4 percent of
                    children were placed in staff-secure or secure facilities. Most children
                    were released quickly, and most reviewed case files of released children
                    contained evidence of reunification packets.

 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   i
                                                                                                               Report Template Update: 06-30-07




E X E C U T I V E                     S U           M M A R Y


                   Case Files Lacked Documentation of Care Received. We could not
                   determine whether lack of documentation in case files was a result of poor
                   record keeping or failure to provide services. Fifty-six percent of case files
                   lacked one or more of the required assessments used to gather information
                   about children’s needs, and all case files lacked at least one required
                   document that would indicate whether children received medical and
                   mental health services or participated in educational and recreational
                   activities.
                   The Division of Unaccompanied Children’s Services provides limited
                   oversight of facilities. Interviews with DUCS central office officials
                   indicate that little oversight of facilities occurs. Federal field specialist
                   and field coordinator visits to facilities do not include routine meetings
                   with children. Additionally, DUCS does not have a method to track
                   children after they are released to sponsors and therefore is unable to
                   determine whether the processes facilities use to screen sponsors are
                   effective and whether sponsors continue to provide for children’s physical,
                   mental, and financial well-being.
                   No explicit agreement exists between Federal Departments regarding
                   information exchange and postrelease activities. When responsibilities were
                   divided between HHS and DHS, no formal memorandum of understanding
                   (MOU) was established to clarify each Department’s specific roles.
                   Although the two Departments established a “Statement of Principles” in
                   2004, it states that “[t]his document does not resolve all outstanding
                   issues. . . .” As such, the Departments lack a specific agreement on
                   exchanging information when children are transferred from DHS to HHS
                   custody. Additionally, it is not clear which Department is responsible for
                   ensuring the safety of children once they are released to sponsors and
                   which Department is responsible for ensuring sponsors’ continued
                   compliance with sponsor agreements.


                   RECOMMENDATIONS
                   Although DUCS appears to be placing and releasing children in
                   accordance with the Flores Agreement, all case files lacked at least one
                   of the DUCS-required documents to assess care needs or document care
                   provided. Therefore, we could not definitively conclude that all children
                   were receiving all needed services. DUCS officials acknowledged a lack
                   of program oversight, and no method exists to ensure that children
                   remain with sponsors and that sponsors comply with sponsor
                   agreements. Finally, no explicit agreement exists between HHS and


 OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   ii
                                                                                                               Report Template Update: 06-30-07




E X E C U T I V E                     S U           M M A R Y


                   DHS with regard to each Department’s specific roles and
                   responsibilities and their shared responsibilities with respect to
                   exchanging information and monitoring children once they are released
                   to sponsors.

                   Therefore, we recommend that DUCS:
                   Enforce documentation requirements to ensure that needs are assessed
                   and care provided. DUCS should conduct regular, periodic onsite visits to
                   all facilities, using a standard protocol to ensure adherence to policies and
                   procedures and completeness of case file documentation.
                   Enhance and define field staff role in ongoing oversight. The roles and
                   responsibilities of Federal field specialists and field coordinators should
                   include oversight responsibilities and require regular, individual meetings
                   with children.
                   Establish a memorandum of understanding. Building on the “Statement of
                   Principles,” HHS officials should develop a formal MOU with DHS to
                   clearly delineate the roles and responsibilities of each Department. At a
                   minimum, the MOU should address the following:
                   •	 each entity’s specific responsibilities for gathering and exchanging
                     information when a child comes into Federal custody and is placed
                     into a DUCS facility, and
                   •	 each entity’s specific responsibilities for gathering and exchanging
                     information about children who have been released to sponsors to
                     ensure that the process is working as intended and that sponsors
                     are adhering to agreements.


                   AGENCY COMMENTS
                   In its written comments on the draft report, ACF did not indicate
                   whether it concurred with our recommendations. ACF did indicate
                   that it agrees that more monitoring of facility documentation and
                   practices is needed; that the Office of Refugee Resettlement (ORR)
                   will include random interviews with children and case file reviews as
                   part of the routine responsibilities for Federal field specialists; and
                   that ORR is drafting a “Joint Operations Manual” with DHS, with the
                   ultimate goal of drafting an MOU.




 OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   iii
                                                                                                               Report Template Update: 06-30-07




E X E C U T I V E                     S U           M M A R Y


                   ACF questioned our findings about case file documentation, stating
                   that many facilities keep multiple files and that “[i]n general, the case
                   files reviewed by ORR contain the required documentation . . . .”

                   With respect to postrelease activities, ACF stated that “ORR’s
                   statutory mandate to ensure the well-being of an unaccompanied
                   alien child ends at the time the child is released from ORR’s care.”


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   Although some facilities did maintain separate files for such things as
                   medical care, education, and counseling as stated in ACF’s comments,
                   those facilities consolidated the files for our review. When asked,
                   facility staff confirmed that case files we reviewed should have
                   contained all required documentation. We have revised the report
                   methodology to clarify that facilities reported that they provided to us
                   the complete case files for our sampled children.

                   In its 2005 report, DHS OIG reported DHS’s concerns with ACF’s
                   release of children to sponsors—concerns that imply DHS believes that
                   it is ACF’s responsibility to ensure proper and safe release of children.
                   ACF stated that its statutory mandate to ensure the well-being of
                   unaccompanied alien children ends at the time children are released
                   from ORR’s care. An MOU will help address which agency has
                   responsibility for postrelease monitoring.

                   Finally, ACF’s descriptions of current activities do not specifically
                   address our recommendations and therefore it is unclear whether and
                   how ACF intends to implement our recommendations. We ask that, in
                   its final management decision, ACF indicate whether it concurs with
                   our recommendations and what steps, if any, it will take to implement
                   them.




 OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   iv
                                                                                   Report Template Update: 06-30-07




Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Children appeared to be placed and released as required. . . . . . . 11 


                    Case files lacked care documentation. . . . . . . . . . . . . . . . . . . . . . . 13 


                    Division of Unaccompanied Children’s Services’ oversight is
                    limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15 


                    Departments lack an explicit agreement . . . . . . . . . . . . . . . . . . . . 17 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 


                    Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 21 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                    A: 	Movement of Unaccompanied Alien Children Through

                        Federal Custody . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                    B: 	Confidence Intervals for Key Estimates . . . . . . . . . . . . . . . . . . 23 


                    C: 	Status of Unaccompanied Alien Children at Time 

                        of Sample Selection . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                                                                                                              Report Template Update: 06-30-07




Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess the Division of Unaccompanied Children’s Services’ (DUCS)
                  placement, care, and release of unaccompanied alien children.


                  BACKGROUND
                  For fiscal year (FY) 2008, the President’s budget for the Department of
                  Health and Human Services (HHS) estimates that the Federal
                  Government will apprehend 10,350 unaccompanied alien children who
                  will be placed into HHS custody. The term “unaccompanied alien child”
                  is defined in 6 U.S.C. § 279(g)(2) as a child who has no lawful
                  immigration status in the United States, who has not attained 18 years
                  of age, and who has no parent or legal guardian in the United States to
                  provide care and physical custody.

                  The 10,350 estimate represents a 15-percent increase from the number
                  of children apprehended and placed in HHS custody during FY 2007.1
                  HHS requested $135 million for FY 2008, an increase over the
                  $77 million appropriated in FY 2007, to fund DUCS, a component
                  within the Administration for Children and Families’ (ACF) Office of
                  Refugee Resettlement (ORR).

                  The Homeland Security Act of 2002, P.L. No. 107-296
                  (6 U.S.C. § 279(a)), transferred responsibility for the custody and care of
                  unaccompanied alien children from the Commissioner of the former
                  Immigration and Naturalization Service (INS), U.S. Department of
                  Justice, to the Director of ORR. The Homeland Security Act also
                  abolished INS and created the Department of Homeland Security
                  (DHS). DHS is responsible for immigration benefits and enforcement,
                  which includes apprehension, processing, and immigration actions. (For
                  simplicity, we will refer to the various agencies to which DHS has
                  assigned its juvenile-related responsibilities collectively as DHS.) The
                  Director of ORR is responsible for the placement, care, and, as
                  appropriate, release to sponsors of these children—responsibilities
                  delegated to the Director of DUCS (hereinafter referred to as DUCS).
                  Officials from DHS and HHS attempted to draft a memorandum of
                  understanding (MOU) to delineate their respective roles and


                  1 “HHS Budget in Brief” document reflecting the fiscal year (FY) 2008 President’s budget
                  for the Department of Health and Human Services (HHS) Available online at
                  http://www.hhs.gov/budget/08budget/2008BudgetInBrief.pdf. Accessed October 17, 2007.



OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   1
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    responsibilities for unaccompanied alien children. Because of
                    difficulties in agreeing to terms for an MOU, the agencies instead
                    crafted a “Statement of Principles” in April 2004. The statement defines
                    broad operational responsibilities but “. . . does not resolve all
                    outstanding issues. . . .”2
                    Prior to enactment of the Homeland Security Act, INS was responsible
                    for all of the functions related to unaccompanied alien children that now
                    belong to DHS and DUCS. In 2001, the Department of Justice’s Office
                    of the Inspector General (OIG) issued a report that noted numerous
                    concerns about INS’s handling of unaccompanied alien children.
                    The report contained 28 recommendations, including a recommendation
                    that INS implement procedures that require the monitoring and regular
                    reporting of noncompliance with the 3-to-5-day placement requirement
                    to ensure that juveniles are promptly placed into appropriate facilities
                    and a recommendation that INS include and enforce standards that
                    require the segregation of nondelinquent juveniles from delinquent
                    juveniles in all contracts with secure detention facilities.3 In 2004 and
                    2005, after the dissolution of INS and the creation of DHS, DHS OIG
                    issued two reports following up on the recommendations from the
                    Department of Justice OIG report.4 HHS OIG has not previously
                    evaluated DUCS or its efforts to place, care for, and release
                    unaccompanied alien children.
                    The Flores Agreement
                    In 1985, a class action lawsuit challenged INS detention policies and
                    procedures for children in its custody.5 The litigants reached a
                    settlement, commonly known as the Flores Agreement, which included
                    minimum standards for areas such as placement, care, and release of
                    children in INS custody.6 Although HHS was not a party to the Flores


                    2 “A Review of DHS’ Responsibilities For Juvenile Aliens,” the Department of Homeland

                    Security (DHS), Office of the Inspector General (OIG), OIG 05-45, September 2005, p. 24. A 

                    copy of the “Statement of Principles” can be found in Appendix E of the report. 

                    3 “Unaccompanied Juveniles in INS Custody,” Department of Justice, OIG, I-2001-009, 

                    September 28, 2001. 

                    4 “Open Inspector General Recommendations Concerning the Former Immigration and 

                    Naturalization Service from ‘Unaccompanied Juveniles in INS Custody,’ a Report by the 

                    Department of Justice Inspector General,” DHS, OIG, OIG-04-18, March 2004; and “A 

                    Review of DHS’ Responsibilities For Juvenile Aliens,” DHS, OIG, OIG 05-45,    

                    September 2005. 

                    5 Reno v. Flores, 507 U.S. 292 (1993). 

                    6 Ibid., Case No. CV 85-4544-RJK (C.D. Cal. 1996). 





 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   2
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    Agreement, section 1512(a) of the Homeland Security Act specifies that
                    agreements continue in effect according to their terms.7 Therefore,
                    HHS is bound by the terms of the Flores Agreement.

                    A basic tenet of the Flores Agreement is that unaccompanied alien
                    children in Federal custody should be treated with dignity, respect, and
                    special concern for their particular vulnerabilities as children. The
                    Flores Agreement also mandates that children be placed in the least
                    restrictive setting; that placement occur within 3 to 5 days of
                    apprehension, except in specific situations; and that children be
                    released to available sponsors without unnecessary delay.8
                    To address the Flores Agreement, DUCS focuses its efforts in three
                    main areas: placement, care, and release. (See Appendix A for an
                    overview flowchart of DUCS’ interactions with unaccompanied alien
                    children.)
                    Placement
                    When DHS apprehends an individual and determines that he or she is
                    an unaccompanied alien child, a juvenile coordinator within
                    DHS contacts the ORR Intake Operations Team (hereinafter referred to
                    as the intake team). The intake team requests information about the
                    child, including gender, age, country of origin, date and location of
                    apprehension, medical and mental condition, and criminal history. The
                    intake team records this information in the Tracking Management
                    System (TMS).9 The intake team then contacts a DUCS-funded facility,
                    typically close to where DHS apprehended the child, to arrange
                    placement.

                    At the time of our review in 2006, DUCS funded 36 facilities and
                    programs to place and care for children in its custody. Facilities,
                    ranging from lowest to highest restriction levels, are shelter,




                    7 6 U.S.C. § 552(a). 

                    8 Ibid., Case No. CV 85-4544-RJK (C.D. Cal. 1996). 

                    9 The Tracking Management System is an electronic database containing records for all 

                    children in the Division of Unaccompanied Children’s Services’ (DUCS) custody. It includes 

                    information such as dates of apprehension, placement, and release; type of placement; and

                    discharge reason (e.g., released to a sponsor, voluntary departure, or ordered removed). 




 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   3
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    staff secure,10 or secure. Facilities vary in terms of whom they serve
                    (e.g., age, gender, and/or nationality of children), duration of placement,
                    type of accommodation (e.g., house in neighborhood versus
                    multiple-building campus), and size of the program (e.g., single program
                    versus a part of a large nonprofit conglomerate). Facilities are located
                    throughout the United States but are concentrated along the southwest
                    border. Some facilities had contracted previously with INS, while
                    others have worked only with DUCS. DUCS also funds foster care
                    programs, which typically involve placements with families. Foster care
                    is typically reserved for initial placements of younger children or for
                    children who have resided at a facility for several months without being
                    released to a sponsor. For simplicity, we will refer to all DUCS-funded
                    placement options, whether shelters, staff-secure or secure facilities, or
                    foster care programs, as facilities.

                    In accordance with the Flores Agreement, DUCS must place a child in
                    the least restrictive facility setting possible unless information collected
                    about the child indicates that he or she requires a specific placement.
                    The Flores Agreement specifies circumstances under which children
                    may be placed in staff-secure or secure facilities, such as when DUCS
                    determines that a child has been charged, is chargeable, or has been
                    convicted of a crime; has committed, or has made credible threats to
                    commit, violent or malicious acts while in custody; has engaged in
                    disruptive behavior; is a flight risk; or must be kept in a secure facility
                    for his or her safety. Most commonly, children are placed in shelters.
                    The intake team provides information about the child collected from
                    DHS to the facility and then contacts DHS to arrange transportation of
                    the child to the facility.
                    Care
                    Facilities have the lead responsibility for determining children’s care
                    needs and ensuring that these needs are met. Care includes physical
                    care, suitable living accommodations, food, appropriate clothing,
                    personal hygiene, medical care, dental care, educational services,



                    10 Staff-secure facilities use staff supervision rather than architectural barriers, such as the
                    barred windows or locked doors used in secure facilities. A staff-secure placement might be
                    used for a child who is a flight risk, for example. A child who is a flight risk might be too
                    difficult for a shelter to handle, but such behavior does not warrant being placed in a secure
                    facility. A staff-secure facility would provide the heightened level of supervision needed to
                    prevent a child from running away.



 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   4
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    mental health services, recreation and leisure activities, acculturation,
                    and adaptation services.

                    Federal field specialists and field coordinators also have a role in
                    ensuring that children receive appropriate care. Federal field
                    specialists are employees of DUCS tasked with ensuring that children
                    receive needed services, as well as ensuring that facilities and field
                    coordinators are interpreting and following DUCS’ policies and
                    procedures correctly.11 Field coordinators are employees of voluntary
                    agencies that contract with DUCS.12 These individuals advocate on
                    behalf of unaccompanied alien children and work with facilities to
                    ensure that children receive needed services. Both Federal field
                    specialists and field coordinators are located throughout the country,
                    each working with facilities within a specific geographic region.

                    DUCS’ policies and procedures require that each child’s case file include
                    assessments and records of care provided for medical, mental health,
                    education, training, and recreation needs. DUCS’ policies and
                    procedures require that facilities identify care needs by completing
                    DUCS-required forms—the Initial Intake Form, the Admissions
                    Assessment, and the Psycho-Social Summary and Individual Service
                    Plan.

                    Initial Intake Form. A staff person at the facility must complete the Initial
                    Intake Form within 24 hours of a child’s placement at the facility. The
                    form is used to determine the child’s basic and immediate care needs.
                    The assessment also helps establish whether the child has a family
                    member in the United States who might serve as a sponsor.
                    Admissions Assessment. A master’s-level social worker (or equivalent)
                    must complete the Admissions Assessment within 3 to 7 days of
                    placement, after reviewing the Initial Intake Form. This assessment
                    builds on the Initial Intake Form and more completely collects
                    biographic, family, legal/migration, medical, and/or any substance abuse
                    or mental health histories.



                    11 Federal field specialists assist facilities with identifying community resources and give
                    final approval to release recommendations. The position of Federal field specialist is
                    relatively new, and at the time of our review, some individuals had been in their jobs for
                    less than a year.
                    12 DUCS administers its program, in part, by contracting with two faith-based voluntary
                    service agencies: the United States Conference of Catholic Bishops and the Lutheran
                    Immigration and Refugee Services.



 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   5
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    Psycho-Social Summary and Individual Service Plan. A master’s-level
                    social worker (or equivalent) must complete the Psycho-Social Summary
                    and Individual Service Plan within 7 to 10 days of placement. The
                    Psycho-Social Summary uses information gathered from the Initial
                    Intake Form and Admissions Assessment and summarizes the child’s
                    strengths, stressors, and presenting problems. The Individual Service
                    Plan addresses the child’s identified needs. Additionally, items from the
                    Admissions Assessment are transferred to the Individual Service Plan,
                    and action steps with completion dates are identified to address those
                    needs. The Individual Service Plan should be reviewed and updated
                    periodically.
                    Unless specifically noted, we will hereinafter refer to the Initial Intake
                    Form, Admissions Assessment, and the Psycho-Social Summary and
                    Individual Service Plan collectively as assessments.
                    Release
                    Releases to sponsors are often termed family reunifications. Children
                    may provide the name of a potential sponsor when apprehended, during
                    intake, and/or when completing the assessments. The facility has the
                    lead responsibility for initially assessing these potential sponsors. In
                    accordance with the Flores Agreement, the following order of preference
                    is used when seeking a sponsor: a parent, a legal guardian, an adult
                    relative, an individual or entity designated by the parent or legal
                    guardian, a licensed program willing to accept legal custody, or an adult
                    individual or entity not previously mentioned seeking custody.

                    Once a potential sponsor is identified, the facility sends that person a
                    family reunification packet. The packet requires that the potential
                    sponsor provide information such as relationship to the child, age,
                    gender, address, household composition, employment status, and
                    immigration status. The potential sponsor also undergoes a fingerprint
                    background check against the Federal Bureau of Investigation’s
                    National Crime Information Center database, the Central Index
                    System, and the Deportable Alien Control System.

                    Once all information is collected and reviewed and the facility deems
                    the potential sponsor appropriate, the facility makes a recommendation
                    for release and the family reunification packet is forwarded to the field
                    coordinator. In cases in which a child may be a potential victim of
                    trafficking or for other specific reasons, facility staff and/or field
                    coordinators may recommend that the sponsor receive a Suitability
                    Assessment, which is a more detailed assessment of a potential sponsor

 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   6
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    including a home visit by a staff member.13 If no Suitability Assessment
                    is recommended, the field coordinator reviews all information that the
                    facility submitted and either requests additional information or makes a
                    recommendation to the Federal field specialist for release. The Federal
                    field specialist makes the final determination as to whether to release
                    the child to a sponsor. Once the sponsor is approved, DUCS releases
                    the child to the sponsor, thus ending DUCS’ custody of that child and its
                    responsibilities for care.14 Even though a child is released to a sponsor,
                    immigration proceedings continue and the child remains in the United
                    States with no lawful immigration status.

                    DUCS requires a sponsor to sign a Sponsor’s Agreement to Conditions of
                    Release form (sponsor agreement) indicating that he or she will assume
                    responsibility for the child’s physical, mental, and financial well-being;
                    for the child appearing at all immigration proceedings; and for the child
                    reporting for removal from the United States if so ordered. Other
                    sponsor agreement requirements include reporting changes of residence
                    to DHS within 5 days; receiving written permission from DHS to
                    transfer custody of the child to another person; and notifying DHS as
                    soon as possible but within 72 hours if the child has disappeared, has
                    been threatened, or has been contacted in any way by an individual(s)
                    believed to represent an alien-smuggling syndicate or organized crime.
                    In signing the sponsor agreement, the sponsor agrees to the following:
                    “I further understand that [DHS] may refer the minor to ORR, and ORR
                    may resume custody if I do not comply with the conditions of the release
                    agreed to in this form.”
                    Policies and Procedures
                    Prior to June 2006, DUCS had a draft policies and procedures manual
                    that was periodically updated with transmittals from the DUCS central
                    office. On June 1, 2006, DUCS issued a single manual that consolidated
                    all the policy- and procedure-related materials. The manual (as did the
                    former manual and transmittals) addresses such topics as what


                    13 A Suitability Assessment is coordinated through the DUCS central office with one of the
                    voluntary agencies. A staff person from the voluntary agency’s field office performs the
                    Suitability Assessment, visiting the potential sponsor’s home, observing the condition of the
                    home, determining where specifically the child would live, and interviewing other
                    individuals living in the home. The staff person summarizes his or her observations and
                    the interview responses to support his or her conclusion as to whether placement with the
                    potential sponsor would serve the best interests of the child.
                    14 If no sponsor is available, the child remains in DUCS custody until a final immigration
                    determination is reached or the child attains age 18.



 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   7
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    information facilities should maintain in their case files, what
                    assessments facilities should complete and how quickly those
                    assessments should be completed once children are placed, how facilities
                    should use information obtained from the assessments to provide care
                    for children, and how facilities should screen potential sponsors.


                    METHODOLOGY
                    This study used four primary methods: (1) analyses of placement and
                    release and timeframes for children placed in DUCS-funded facilities
                    during specific periods; (2) a review of case files for 100 randomly
                    selected children physically placed at DUCS-funded facilities from
                    April 1 through September 30, 2006; (3) structured interviews with
                    directors and other key staff of the 22 facilities where at least 1 of the
                    100 randomly sampled children had been placed; and (4) structured
                    interviews with Federal field specialists, field coordinators, key officials
                    in the DUCS central office, and officials from the voluntary agencies’
                    central offices.
                    Analyses of Placements and Releases
                    At the time we received the complete TMS database, it contained
                    26,030 records of placements. We used the admission dates to identify
                    the 4,235 children who were physically placed (admitted) in
                    DUCS-funded facilities from April 1 through September 30, 2006. This
                    period reflected the most recent, complete 6-month period at the time
                    we received the TMS data and allowed us to review the most current
                    practices of DUCS and facilities (e.g., completion of assessments,
                    provision of care) at the time we conducted our review. We determined
                    the placement types (e.g., shelter, secure, foster care) and average time
                    from apprehension to admission for the children admitted to
                    DUCS-funded facilities during this 6-month period.

                    Separately, we used the admission dates listed in TMS to identify the
                    3,937 children who were admitted into facilities from October 1, 2005,
                    through March 31, 2006. We used this period because DUCS officials
                    informed us that most children are, on average, in DUCS-funded
                    facilities for 45 days. All of the children admitted during this 6-month
                    period would have been admitted to a facility at least 6 months prior to
                    our receiving the TMS data, meaning that a significant majority of them
                    should have been released from their respective facilities. We
                    determined the durations of stays in DUCS-funded facilities for the
                    children admitted during this 6-month period.


 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   8
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    Case File Reviews
                    From the population of 4,235 children who were admitted into
                    DUCS-funded facilities from April 1 through September 30, 2006, we
                    randomly selected 100 children. We conducted site visits at all
                    22 facilities that provided direct care for at least 1 of the 100 sampled
                    children. Of the 22 facilities, 16 were shelters, 2 were staff-secure
                    facilities, 1 was a secure facility, and 3 were foster care programs.
                    Although we observed children during onsite visits at some facilities, we
                    did not speak with children about their care and treatment while in
                    DUCS’ custody. Prior to reviewing the sampled case files, we confirmed
                    with facility staff that they had provided to us the complete case files for
                    all sampled children and that these case files contained all
                    documentation that DUCS policies and procedures required. We
                    reviewed case files for assessments and other documents related to
                    health, mental health, education, recreation, and family reunification,
                    as well as for cover sheets, progress notes, and case notes indicating
                    that children received services.

                    We excluded from our analyses four case files for children who had been
                    determined to not meet the definition of unaccompanied alien children
                    or were in a DUCS-funded facility for fewer than 10 days (the amount of
                    time DUCS policies and procedures allow facilities to complete the last
                    of the required assessments) and whose case files lacked all required
                    assessments. When we analyzed all 96 remaining case files, we
                    projected the results to the universe of children admitted to facilities
                    from April 1 through September 30, 2006. Confidence intervals for
                    these projections can be found in Appendix B. When we analyzed
                    subgroups from the sample, such as the 46 children released to sponsors
                    at the time we drew our sample, we did not project our results to the
                    universe.
                    Facility Staff Interviews
                    At the 22 facilities that had at least 1 of the 100 sampled children, we
                    conducted structured interviews with the facility directors. At some
                    facilities, we also interviewed case managers, counselors, clinicians,
                    and/or medical coordinators (or similar individuals). Topics that we
                    discussed included the following:
                    •	 the number of children the facility served and scope of services at
                      the facility;
                    •	 the facility’s primary goals in working with unaccompanied alien
                      children;

 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   9
                                                                                                                Report Template Update: 06-30-07




I N T R O D        U C T            I O N


                    •	 the way in which the facility learned about pending placements;

                    •	 the way in which the facility identified needs and provided care;

                    •	 the processes the facility used for release, sponsor background
                      checks, and suitability assessments; and
                    •	 recommendations the facilities had for improvement.

                    Although we may have interviewed multiple staff members at each
                    facility, we catalogued the responses as one per facility for the purposes
                    of our analysis. Therefore, each of the 22 facilities is represented once
                    regardless of how many people we interviewed.
                    Federal Field Specialist, Field Coordinator, and Central Office Interviews
                    We interviewed all Federal field specialists and field coordinators who
                    had responsibility for the facilities in our sample, resulting in
                    interviews with 9 Federal field specialists and 10 field coordinators. We
                    asked about their experiences in working with unaccompanied alien
                    children and facilities; their interactions with each other; and their roles
                    and responsibilities related to placement, care, and release of
                    unaccompanied alien children. We used these interviews to supplement
                    the information gathered from case file reviews and facility staff
                    interviews.

                    We interviewed key officials in the DUCS central office and the
                    voluntary agencies. We used these interviews to support or contrast
                    information obtained through case file reviews and facility staff, Federal
                    field specialist, and field coordinator interviews.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   10
                                                                                                              Report Template Update: 06-30-07




Δ   F I N D I N G S

          Most children appeared to be placed          Absolute adherence to the Flores
          and released in accordance with the          Agreement is difficult to
                                                       determine because the Agreement
                            Flores Agreement
                                                       established some criteria specific
                  to INS. Additionally, the Agreement at times uses terminology for
                  placement and release that is nonspecific and subject to interpretation.
                  Still, DUCS appears to be placing and releasing children in accordance
                  with the Flores Agreement.
                  Eighty-four percent of children were admitted to facilities within 3 days of
                  apprehension and less than 4 percent of children were placed in staff-secure
                  or secure facilities
                  The Flores Agreement specifically requires that a child be placed in a
                  facility within 3 days if the child is apprehended in an INS district in
                  which a licensed program is located and has space available and within
                  5 days in all other cases, except for specific situations, such as during an
                  “emergency or influx of minors,” in which case children should be placed
                  at facilities “as expeditiously as possible.” However, a single agency no
                  longer has responsibility for both the apprehension and placement of
                  children. DHS must transfer children to DUCS to make the placement
                  decisions rather than determining placements itself. Despite the
                  transfer of children from DHS to DUCS, TMS data indicate that
                  84 percent of children admitted into facilities from April 1 through
                  September 30, 2006, were admitted within 3 days of apprehension, and
                  94 percent were admitted within 5 days of apprehension. TMS data did
                  not enable us to determine whether the 10 percent of placements that
                  occurred after 3 days but within 5 days of apprehension fell within the
                  “all other cases” criteria that the Flores Agreement established or
                  whether the remaining 6 percent of placements that occurred after
                  5 days of apprehension fell within the established exceptions.

                  The Flores Agreement also specifies that children should not be placed
                  in a staff-secure or secure facility if less-restrictive alternatives are
                  available and appropriate. For children initially admitted to facilities
                  from April 1 through September 30, 2006, TMS data indicate that
                  3.7 percent of children were placed in staff-secure or secure facilities.
                  Of these children, 89 percent had information in their TMS records
                  supporting these placements. Common reasons for staff-secure and
                  secure facility placements included children being flight risks, having
                  been convicted of crimes, having criminal charges pending against
                  them, or exhibiting violent or disruptive behavior.


OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   11
                                                                                                                  Report Template Update: 06-30-07




F   I N D I N G        S


                      During the review period for the 2001 Department of Justice OIG
                      report, INS contracted with 57 secure facilities. INS lacked sufficient
                      shelter placement options to avoid placing children in secure facilities
                      during periods of influx. Delinquent and nondelinquent children were
                      often commingled at these secure facilities.15 DUCS has reduced the
                      number of secure facilities (to two during our review period), meaning
                      that DUCS is unlikely to place children at secure facilities during
                      periods of influx.
                      Most children were released quickly, and reviewed case files often
                      contained evidence of reunification packets
                      Section VI of the Flores Agreement is entitled “General Policy Favoring
                      Release,” and states that children should be released from Federal
                      custody without unnecessary delay. TMS data that we received in
                      mid-October 2006 indicate that for children admitted to facilities from
                      October 1, 2005, through March 31, 2006,16 61 percent were released to
                      sponsors, on average, within 30 days. Of these children, 42 percent
                      were released to a parent and an additional 51 percent were released to
                      another relative (e.g., aunt or uncle, brother or sister). TMS data also
                      indicate that 99 percent of all children had been discharged from
                      the facility at the time we received the data for various reasons
                      (e.g., released to a sponsor, ordered removed, voluntarily departed, or
                      aged out), on average, within 39 days. The remaining 1 percent of
                      children remained in DUCS custody.

                      At the time we selected our sample, 46 of the 100 sampled children had
                      been reunified with sponsors, while an additional 34 were no longer at
                      the original facilities for various reasons, such as being ordered removed
                      as a result of immigration proceedings or voluntarily choosing to depart
                      the United States. (See Appendix C for the status of sampled children
                      at the time we received TMS data to draw our sample.) Case files for
                      43 of the 46 children reunified with sponsors contained evidence of
                      facilities’ assessments of potential sponsors through the use of
                      reunification packets.


                      15 The 2001 Department of Justice OIG report, “Unaccompanied Juveniles in INS
                      Custody,” I-2001-009, discussed the placement of juveniles in secure facilities during
                      periods of influx and contained recommendations addressing the segregation of
                      nondelinquent juveniles from delinquent juveniles and the placement of children in secure
                      facilities.
                      16 The 6-month period of October 1, 2005, through March 31, 2006, was used for the release
                      analysis to allow time for children to be released from DUCS-funded facilities.



    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   12
                                                                                                                                              Report Template Update: 06-30-07




F   I N D I N G                                    S         





                                     Case files lacked documentation of                  We could not determine whether
                                           assessments completed and                     the lack of documentation in case
                                                                                         files was a result of poor record
                                                          care received
                                                                                         keeping or failure to provide
                                                  services. During interviews, facility staff indicated that they completed
                                                  required assessments, that children received services to address
                                                  identified care needs, and that documentation of these activities would
                                                  be found in case files. Additionally, staff from 14 facilities indicated
                                                  that the assessments were useful and had realistic timeframes for
                                                  completion. Still, all case files lacked at least one of the DUCS-required
                                                  documents used to assess care needs or document care provided.
                                                  Overall, 56 percent of case files lacked one or more of the required
                                                  assessments used to gather information about children’s needs
                                                  Although 4 percent of case files did not contain the Initial Intake Form,
                                                  which is the assessment to be completed within 24 hours of a child being
                                                  admitted to a facility, 36 percent of case files lacked the Admissions
                                                  Assessment (to be completed within 3 to 7 days of admission), and
                                                  44 percent lacked the Psycho-Social Summary (to be completed within
                                                  7 to 10 days of admission). (See Table 1 below.) The Individual Service
                                                  Plan, which is based largely on the results of the other assessments and
                                                  serves as a primary tool for documenting and tracking care provided,
                                                  was missing from 46 percent of case files.

                                                       Table 1: Case Files Missing Documentation of Assessments


                                    60%

                                    50%
         Percentage of Case Files




                                    40%

                                    30%

                                    20%

                                    10%

                                    0%
                                          Initial Intake Form           Admissions                     Psycho-Social                  Individual Service                 Files missing at
                                                                        Assessment                       Summary                             Plan                            least one
                                                                                                                                                                           assessment
                                                                                      Types and Status of Assessments
      Source: OIG, 2007.



    OEI-07-06-00290                               DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N                13
                                                                                                                                            Report Template Update: 06-30-07




F    I N D I N G                                 S


                                                All case files lacked at least one required document that would indicate that
                                                children received medical or mental health services or participated in
                                                educational or recreational activities
                                                Seventy percent of case files did not contain cover sheets with dates of
                                                services, 55 percent did not contain progress notes related to medical
                                                and mental health care, and 45 percent did not contain case notes that
                                                described activities and services associated with care. (See Table
                                                2 below.)


                                           Table 2: Case Files Lacking Docum entation of Service Provision


                                80%
                                70%
     Percentage of Case Files




                                60%

                                50%
                                40%

                                30%

                                20%
                                10%
                                0%
                                        Group    Cover sheets Recreational                        Individual              Progress             Educational                 Case
                                      counseling               activity log                      counseling                notes                 record                  notes/log
                                        notes                                                       notes
                                                                                      Required Docum ents
    Source: OIG, 2007.



                                                Although facility staff stressed that most children experienced serious
                                                trauma during their journey to the United States or had mental health
                                                issues prior to their arrival, case files often lacked information about
                                                mental health treatment. Seventy-five percent of case files did not
                                                contain group counseling notes, and 56 percent did not contain
                                                individual counseling notes.

                                                When conducting our scheduled site visits, we commonly saw
                                                classrooms and observed children participating in educational activities,
                                                yet 50 percent of case files did not contain educational records. We also
                                                observed recreational areas and equipment, such as soccer fields,
                                                basketball hoops, and game tables, yet 58 percent of case files did not
                                                contain evidence of participation in recreational activities.




     OEI-07-06-00290                            DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N           14
                                                                                                                   Report Template Update: 06-30-07




F   I N D I N G 
S


                       In contrast to the documentation of ongoing services, services that
                       children received less frequently or only once were less likely to be
                       missing required documentation. For example, only 7 percent of case
                       files did not contain immunization records, 17 percent did not contain
                       initial medical exams, and 20 percent did not contain educational
                       assessments.


                                                                  Interviews with DUCS central
                     The Division of Unaccompanied
                                                                  office officials indicate that little
                 Children’s Services provides limited             oversight of facilities occurs.
                                oversight of facilities           They stated that the lack of
                                                                  central office staff and
                       standardized review protocols limited centralized oversight. Federal
                       field specialists and field coordinators indicated that they routinely visit
                       facilities and therefore could assist in the oversight of facilities.
                       However, only one Federal field specialist reported conducting any
                       oversight activities. Federal field specialists and field coordinators do
                       not routinely meet individually with children to ensure that facilities
                       are addressing their care needs. Finally, DUCS does not have a method
                       to determine whether the processes facilities use to screen sponsors are
                       effective at ensuring safe reunifications.
                       Federal field specialists’ interactions with facilities typically do not include
                       oversight of those facilities
                       Federal field specialists are tasked with ensuring that children receive
                       needed services and that facilities are interpreting and following DUCS
                       policies and procedures correctly. However, only one Federal field
                       specialist noted providing facility oversight through audits of case files.
                       Another Federal field specialist explained that although she may
                       interact with facilities regarding policy and oversight, she lacks
                       authority during these interactions. DUCS officials confirmed that
                       Federal field specialists are “leaders without authority” and that their
                       current responsibilities focus on capacity building (e.g., identifying
                       community resources and assisting facility staff and field coordinators
                       with interpreting DUCS policies and procedures).
                       Federal field specialists and field coordinators do not routinely meet with
                       children to determine whether facilities are meeting their individual care
                       needs
                       Federal field specialists and field coordinators reported seeing children
                       when they visit facilities; they do not routinely meet with children to

    OEI-07-06-00290    DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   15
                                                                                                                  Report Template Update: 06-30-07




F   I N D I N G        S


                      discuss the services or care they receive. Overall, 12 Federal field
                      specialists and field coordinators reported meeting with children but
                      indicated that those meetings were only on an as-needed basis (i.e., for
                      “nonroutine” or “special needs” cases). Six out of ten field coordinators
                      and four out of nine Federal field specialists described their interactions
                      with staff and children to be related to reunification, not to service
                      provision or receipt of care. Case files did not contain documentation
                      indicating whether or when Federal field specialists and field
                      coordinators met with children to ensure their well-being or worked
                      with facility staff to ensure that children received needed services.17
                      The 2001 Department of Justice OIG report found that INS staff were
                      not meeting with children residing at facilities and recommended that
                      weekly meetings with all children take place to ensure children’s
                      well-being. In its response to the report, INS indicated that it had a
                      policy requiring that appropriate staff visit children on a weekly basis
                      but noted that staffing and distances between facilities and INS offices
                      presented challenges to meeting this requirement. INS stated that it
                      would work to identify resources and opportunities to more fully comply
                      with its requirement. In the 2004 DHS OIG report following up on the
                      Department of Justice OIG report recommendations, DHS OIG
                      designated HHS as responsible for addressing this recommendation.
                      However, the DUCS policies and procedures do not require Federal field
                      specialists and/or field coordinators to routinely meet with children
                      individually.
                      DUCS does not have methods to determine whether facilities’ sponsor
                      screenings are effective and whether sponsors are providing for the
                      children’s physical, mental, and financial well-being
                      Although our case file review and interviews show that considerable
                      time and effort are put into the reunification process, DUCS is unable to
                      determine whether the processes facilities use to screen sponsors are
                      effective because DUCS rarely gathers information about children or
                      sponsors after reunification. Additionally, despite establishing the
                      sponsor agreement, which would require some form of followup to
                      ensure compliance, DUCS does not formally follow up with sponsors to
                      ensure that sponsors are providing for children’s physical, mental, and

                      17 While we were conducting this study, DUCS closed a facility due to allegations that a
                      facility staffer was sexually abusing children. The Federal field specialist and the field
                      coordinator who covered this facility indicated that they interacted with the children while
                      they were at the facility, but that meetings with children were not routine.



    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   16
                                                                                                                  Report Template Update: 06-30-07




F    I N D I N G       S


                      financial well-being or meeting the other conditions of the sponsor
                      agreement except in limited circumstances (e.g., when a Suitability
                      Assessment is conducted). DUCS officials stressed that once a child is
                      released, DUCS custody and therefore responsibility for that child ends.



       No explicit agreement exists between Federal                  At the time of the Flores
    Departments regarding information exchange and                   Agreement, children were in
                                                                     the care and oversight of just
                               postrelease activities
                                                                     one Federal Department
                      from the time of apprehension until the completion of immigration
                      proceedings. When responsibilities were divided between DHS and
                      HHS, no formal MOU was established to clarify each Department’s
                      specific roles. Although the two Departments established a “Statement
                      of Principles” in 2004, it states that “[t]his document does not resolve all
                      outstanding issues. . . .”
                      The Departments lack a specific agreement for exchanging information
                      when children are transferred for initial placement
                      The intake team reported that the information it receives from DHS
                      during a standard initial placement is typically limited and therefore
                      the information provided to facilities prior to a standard initial
                      placement is often limited.18 Staff from 13 facilities indicated that they
                      receive little or no information about a child prior to the child’s arrival
                      at the facility, or that the information they do receive is limited to basic
                      demographic information (e.g., age, gender, country of origin, location of
                      apprehension). Facility staff commonly expressed a desire to receive
                      more information, with a few citing specific information such as medical
                      and mental health conditions or behavioral issues.

                      Two examples of not receiving important information were provided by
                      facilities. In one case, a facility received a child with a broken leg and in
                      a wheelchair; in the other, a facility received a child who had been in a
                      car accident prior to apprehension and needed follow-up medical
                      attention. Although these circumstances would not have changed the
                      placement at each respective facility, having the medical information


                      18 The exception to the lack of information exchange during placement occurs when
                      children are placed in staff-secure or secure facilities. Reportedly, these children often have
                      been apprehended in the United States’ interior and turned over to Federal officials after
                      having spent time in a local jail. Thus, DHS and DUCS have more information about the
                      child prior to initial placement.



    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   17
                                                                                                                  Report Template Update: 06-30-07




F   I N D I N G 
S


                      would have allowed the facility to be prepared for meeting these
                      children’s immediate needs.

                      DUCS informed us of a pilot program underway to improve information
                      exchange. According to the intake team, the DHS apprehending officer
                      completes a detailed form about an apprehended child. This
                      information is forwarded to a DHS juvenile coordinator, then to DUCS
                      to assist in the placement of the child. The intake team said that it
                      believes this approach will provide more complete information on the
                      child, alleviate errors, and, if a breakdown of information exchange does
                      occur, make it easier to hold individuals accountable for providing
                      incomplete or inaccurate information.
                      Responsibility for ensuring safe release and compliance with the sponsor
                      agreement is undefined
                      The 2005 DHS OIG report found fault with the DUCS reunification
                      process. The report included examples of releases that DHS believed
                      were questionable. DHS believed these releases could be unsafe for
                      children and/or lead to children failing to appear at immigration
                      proceedings. The report recommended that the appropriate DHS
                      agency request the appropriate HHS agency to enter into an MOU to
                      address respective responsibilities for unaccompanied alien children.
                      The recommendation went on to state that the MOU should contain
                      specific requirements for release, including mandatory record checks on
                      potential juvenile sponsors.19
                      DUCS began requiring sponsor fingerprint background screenings as of
                      October 1, 2006, which addresses some of the DHS OIG report concerns.
                      However, with respect to the DHS concerns that reunifications were at
                      times unsafe or led to children failing to appear at immigration
                      proceedings, DUCS custody of children ends when family reunifications
                      occur. The lack of a specific agreement leaves unclear which entity has
                      responsibility for ensuring that children remain safe and that sponsors
                      continue to comply with sponsor agreements.




                      19 “A Review of DHS’ Responsibilities For Juvenile Aliens,” DHS, OIG, OIG 05-45,
                      September 2005.



    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   18
                                                                                                                  Report Template Update: 06-30-07




R   E C O        M M E N D A T                       I O N               S
Δ       R E C O M M E N D A T I O N S

                      Although DUCS appears to be placing and releasing children in
                      accordance with the Flores Agreement, all case files lacked at least one
                      of the DUCS-required documents to assess care needs or document care
                      provided. As such, we could not definitively conclude that all children
                      were receiving all needed services. DUCS officials acknowledged a lack
                      of program oversight, and no method exists to ensure that children
                      remain with sponsors and that sponsors comply with sponsor
                      agreements. Finally, no explicit agreement exists between HHS and
                      DHS with regard to each Department’s specific roles and
                      responsibilities and their shared responsibilities with respect to
                      exchanging information and monitoring children once they are released
                      to sponsors.

                      Therefore, we recommend that DUCS:
                      Enforce Documentation Requirements To Ensure That Needs Are Assessed
                      and Care Provided
                      DUCS should develop a standardized protocol and use it to conduct
                      regular, periodic onsite visits to all facilities to ensure adherence with
                      policies and procedures and completeness of case file documentation.
                      These efforts should focus on documents that assess care needs and
                      demonstrate care provided.
                      Define and Enhance Field Staff Roles in Ongoing Oversight
                      The roles and responsibilities of Federal field specialists and field
                      coordinators should be expanded to include not only release activities
                      but oversight of children’s care. One method for ensuring that children
                      are receiving needed services would be for DUCS to require Federal
                      field specialists and/or field coordinators to regularly meet with all
                      children individually to ensure that each child is safe and is receiving
                      needed care.
                      Establish a Memorandum of Understanding
                      Building on the “Statement of Principles,” HHS officials should develop
                      a formal MOU with DHS to clearly delineate the roles and
                      responsibilities of each Department. At a minimum, the MOU should
                      address the following:
                      •	 Each entity’s specific responsibilities for gathering and exchanging
                        information when a child comes into Federal custody and is placed
                        into a DUCS facility. DUCS could use the results of the pilot
                        project, which is intended to improve the completeness and accuracy
                        of information that DHS collects and provides to DUCS, to


    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   19
                                                                                                                  Report Template Update: 06-30-07




R   E C O        M M E N D A T                       I O N               S


                        determine how information is best exchanged to meet children’s
                        needs.
                      •	 Each entity’s specific responsibilities for gathering and exchanging
                        information about children who have been reunified with a sponsor
                        to ensure that children are safe and that sponsors are adhering to
                        agreements. Officials should develop a process to sample and collect
                        information regarding the outcomes of family reunifications, such as
                        whether children remain with sponsors and participate in
                        immigration proceedings, and whether sponsors remain in
                        compliance with sponsor agreements. Given that many children are
                        released to parents and the majority of children are released to
                        relatives, officials may want to take these releases into
                        consideration when determining with which sponsors to follow up
                        and how often.


                      AGENCY COMMENTS
                      In its written comments on the draft report, ACF did not indicate
                      whether it concurred with our recommendations. ACF did indicate that
                      it agrees that more monitoring of facility documentation and practices is
                      needed; that ORR will include random interviews with children and
                      case file reviews as part of the routine responsibilities for Federal field
                      specialists; and that ORR is drafting a “Joint Operations Manual” with
                      DHS, with the ultimate goal of drafting an MOU.

                      ACF provided information that calls into question our finding regarding
                      lack of case file documentation. ACF stated, “It is also important to
                      note that many facilities keep documentation of group counseling notes
                      and recreational activities separate from individual case files,” and “In
                      general, the case files reviewed by ORR contain the required
                      documentation, as per ACF policies and procedures.”

                      Also, in reference to our finding regarding responsibility for postrelease
                      activities, ACF stated that “ORR’s statutory mandate to ensure the
                      well-being of an unaccompanied alien child ends at the time the child is
                      released from ORR’s care.” ACF points out that ORR is working on
                      developing a “Joint Operations Manual” with DHS as a first step toward
                      drafting an MOU to address legal issues.




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   20
                                                                                                                  Report Template Update: 06-30-07




R   E C O        M M E N D A T                       I O N               S            




                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      Prior to reviewing sampled case files at each facility, we verified with
                      facility staff that these case files were complete. Although some
                      facilities did maintain separate files for such things as medical care,
                      education, and counseling, those facilities consolidated the files for our
                      review. When asked, facility staff confirmed that case files we reviewed
                      should have contained all required documentation. We have revised the
                      report methodology to clarify that facilities reported that they had
                      provided to us the complete case files for our sampled children. We
                      continue to support our finding regarding missing case file
                      documentation and our recommendation related to enforcing
                      documentation requirements.
                      In its 2005 report, DHS OIG reported DHS’s concerns about ACF’s
                      release of children to sponsors. These concerns imply that DHS believes
                      that it is ACF’s responsibility to ensure proper and safe release of
                      children. ACF stated that its statutory mandate to ensure the well-
                      being of unaccompanied alien children ends at the time children are
                      released from ORR’s care. Neither agency appears to be monitoring or
                      taking responsibility for monitoring children or sponsors postrelease,
                      which is what prompted, in part, our recommendation that HHS enter
                      into an MOU with DHS. Although we support ACF’s efforts to draft a
                      “Joint Operations Manual,” we urge development of a formal MOU with
                      DHS to clearly delineate the roles and responsibilities of each
                      Department.

                      Finally, ACF’s descriptions of current activities do not specifically
                      address our recommendations and therefore it is unclear whether and
                      how ACF intends to implement our recommendations. We ask that, in
                      its final management decision, ACF indicate whether it concurs with
                      our recommendations and what steps, if any, it will take to implement
                      them. The full text of ACF’s comments can be found in Appendix D.




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   21
                                                                                                              Report Template Update: 06-30-07




Δ   A P P E N D I X                             ~            A




OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   22
                                                                                                                              Report Template Update: 06-30-07




       Δ            A P P E N D I X                                   ~            B

                                    Confidence Intervals for Key Estimates


                                                                                                               Point Confidence Interval
Finding                                                                                                                                                            Ratio
                                                                                                            Estimate         95 Percent

Case files that lacked one or more required assessments                                                           56.2%                           46.1%-66.4%      54/96

Case files that lacked an Initial Intake Form                                                                        4.2%                              0.1%-8.2%    4/96

Case files that lacked an Admissions Assessment                                                                   36.4%                           26.6%-46.3%      35/96

Case files that lacked a Psycho-Social Summary                                                                    43.8%                           33.6%-53.8%      42/96

Case files that lacked an Individual Service Plan                                                                 45.8%                           35.7%-56.0%      44/96

Case files that lacked cover sheets                                                                               69.8%                           60.4%-79.1%      67/96

Cases files that did not contain progress notes                                                                   55.2%                           45.1%-65.3%      53/96

Case files that did not contain case notes                                                                        44.8%                           34.7%-54.9%      43/96

Case files that did not contain group counseling notes                                                            75.0%                           66.2%-83.8%      72/96

Case files that did not contain individual counseling notes                                                       56.2%                           46.1%-66.4%      54/96

Case files that did not contain education records                                                                 50.0%                           39.8%-60.2%      48/96

Case files that did not contain evidence of recreational activities                                               58.3%                           48.3%-68.4%      60/96

Case files that did not contain immunization records                                                                 7.3%                            2.0%-12.6%    11/96

Case files that did not contain initial medical exams                                                             16.7%                              9.1%-24.2%    20/96

Case files that did not contain educational assessments                                                           19.8%                           11.7%-27.9%      23/96




             OEI-07-06-00290      DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N       23
                                                                                                                        Report Template Update: 06-30-07




ΔA P AAP P EP PNP EDE NIN DX D I I~X X               B
                                                     C
                                                       ~
                                                           ~ B
                                                              C
Δ
                            Status of Unaccompanied Alien Children
                                  at Time of Sample Selection


                 Status                                                                                                 Number


                 Released to sponsor                                                                                                46

                 Not released (in facility at time sample drawn)                                                                    20

                 Returned (ordered removed)                                                                                         18

                 Returned (voluntary departure)                                                                                        5

                 Adult status (age redetermined)                                                                                       3

                 Immigration status changed (accompanied)                                                                              3

                 Transferred to a different facility                                                                                   2

                 Adult status (aged out)                                                                                               2

                 Immigration status changed (other)                                                                                    1
                 Source: Office of Inspector General, 2007.




      OEI-07-06-00290       DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   24
                                                                                                                  Report Template Update: 06-30-07




A   P   P E N D       I X         ~            A
Δ       A P P E N D I X                             ~            D

                  Agency Comments




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   25
                                                                                                                  Report Template Update: 06-30-07




A   P   P E N D       I X         ~            D




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   26
                                                                                                                  Report Template Update: 06-30-07




A   P   P E N D       I X         ~            D




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   27
                                                                                                                  Report Template Update: 06-30-07




A   P   P E N D       I X         ~            D




    OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   28
                                                                                                              Report Template Update: 06-30-07




Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office, and Gina C. Maree, Deputy Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff from the Kansas City regional office who contributed to the report
                  include Emily Meissen, Amber Meurs, and Dennis Tharp; central office
                  staff who contributed include Kevin Farber, Alan Levine, Elise Stein,
                  and Barbara Tedesco.




OEI-07-06-00290   DIVISION   OF   U N A C C O M PA N I E D C H I L D R E N ’ S S E R V I C E S : E F F O R T S T O S E R V E C H I L D R E N   29
